             Work Plan
                               Fiscal Year 2013




Promoting effective management, accountability, and positive change
                                          UNCLASSIFIED


Table of Contents

Section                                                                         Page
Introduction                                                                       3
OIG Vision                                                                         4
OIG Mission                                                                        4
OIG Core Values                                                                    4
Office of Audits Overview                                                          5
Office of Audits Plans for FY 2013                                                 7
       Audit Directorate                                                           7
                Contracts and Grants Division                                      7
                Financial Management Division                                      8
                Human Capital and Infrastructure Division                         12
                Information Technology Division                                   13
                Security and Intelligence                                         15
       Middle East Operations Directorate                                         17
                Iraq                                                              17
                Afghanistan                                                       18
                Pakistan                                                          19
                Other Locations and Bureaus                                       20
Office of Inspections Overview                                                    21
Office of Inspections Plans for FY 2013                                           23
Office of Inspections Special Projects and Areas of Emphasis                      24
Office of Investigations Overview                                                 25
Office of Investigations Areas of Emphasis and Preventive Actions for FY 2013     26
OIG Hotline                                                                       26
Abbreviations                                                                     27




                              Office of Inspector General FY 2013 Work Plan
                                                   2
                                          UNCLASSIFIED
                                         UNCLASSIFIED


Introduction


We are pleased to present the Office of Inspector General Work Plan for Fiscal Year 2013. This
publication provides brief descriptions of activities that the Office of Inspector General (OIG)
plans to initiate or continue with respect to the programs and operations of the Department of State
(Department) and the Broadcasting Board of Governors (BBG) in FY 2013.

OIG is dedicated to improving operations, promoting positive change, and detecting and
preventing waste, fraud, abuse, and mismanagement. OIG’s independent role and general
responsibilities are established by the Inspector General Act of 1978, as amended, the Foreign
Service Act of 1980, the Omnibus Diplomatic Security and Antiterrorism Act of 1986, and the
Foreign Affairs Reform and Restructuring Act of 1998.

Specifically, OIG:
      Reviews Department and BBG programs and operations to assess their effectiveness and
       use of resources;
      Recommends operational, procedural, or policy changes to correct deficiencies;
      Ensures effective, efficient operations and compliance with laws and regulations;
      Identifies savings through greater efficiency, alternative use of resources, and
       recommended collection actions; and
      Investigates and refers cases of wrongdoing for judicial and management action to correct
       waste, fraud, abuse, or mismanagement.

The criteria used by OIG in selecting areas for review include:
      Congressional mandates;
      Magnitude in dollars or other resources;
      Vulnerability to loss through waste, fraud, abuse, or error;
      Significance to the achievement of major Department goals;
      Importance to employee health and safety;
      Particular interest to the Secretary, the Deputy Secretary, an Under Secretary, the White
       House, or the Congress; and
      New or changed conditions affecting a program or function.

Our Work Plan for FY 2013 is an evolving document, to be revised and updated as necessary to
ensure that OIG work remains relevant, timely, and responsive to the priorities of the Department,
BBG, the Administration, the Congress, and the foreign affairs community.


                             Office of Inspector General FY 2013 Work Plan
                                                  3
                                         UNCLASSIFIED
                                         UNCLASSIFIED


OIG Vision


To be a world-class organization promoting effective management, accountability, and positive
change in the Department, Broadcasting Board of Governors, and the foreign affairs community.



OIG Mission


The Office of Inspector General conducts independent audits, inspections, and investigations that
advance the missions of the Department of State and the Broadcasting Board of Governors. OIG
provides leadership to:

      promote integrity, efficiency, effectiveness, and economy;
      prevent and detect waste, fraud, abuse, and mismanagement;
      identify vulnerabilities and recommend constructive solutions;
      offer expert assistance to improve Department and BBG operations;
      communicate timely, useful information that facilitates decision-making and achieves
       measurable gains; and
      keep the Department, BBG, and the Congress fully and currently informed.



OIG Core Values


Credibility: OIG is committed to the highest standards of accountability, independence, integrity,
and professionalism.
Objectivity: OIG’s reports and other products are factual, accurate, informative, and reliable.
Relevance: An independent agent for positive change, OIG provides valuable and timely service.
Effectiveness: OIG makes a difference. Working cooperatively, in a spirit of teamwork, internally
and with other organizations, enhances OIG’s impact.




                             Office of Inspector General FY 2013 Work Plan
                                                  4
                                         UNCLASSIFIED
                                         UNCLASSIFIED


Organization Chart




Office of Audits Overview


The Assistant Inspector General for Audits is responsible for leading the Office of Audits, which is
comprised of the Audit Directorate and the Middle East Region Operations (MERO) Directorate.
The Deputy Assistant Inspector General for Audits is responsible for the Audit Directorate, and is
charged with conducting audits and program evaluations of the management and financial
operations of the Department and BBG, including their audited financial statements, information
security, internal operations, and external activities funded by the Department through contracts or
financial assistance. The Deputy Assistant Inspector General for MERO is responsible for the
MERO Directorate and for performing engagements within the Middle East Region, covering the
Department’s Bureaus of Near Eastern Affairs (NEA) and South and Central Asian Affairs (SCA).
The Deputy Assistant Inspector General for MERO is also responsible for general operation of our

                             Office of Inspector General FY 2013 Work Plan
                                                  5
                                         UNCLASSIFIED
                                          UNCLASSIFIED


overseas offices located in Cairo, Egypt; Kabul, Afghanistan; Islamabad, Pakistan; and Baghdad,
Iraq.

Audits and program evaluations determine the degree to which an organization, program, or
function is effectively managed, as well as the extent to which program results are achieved. The
definition for effectiveness is derived from the agency objectives, operating within the relevant
laws and directives pertaining to the organization or program. The overall objective of an audit is
to identify challenges impeding progress and offer solutions that address the root cause of those
challenges, as well as to identify and report best management practices that can be replicated to
promote operational efficiency and the effective management of all Department and BBG
programs. The audit process includes:

      Audit notification. The Office of Audits notifies the agency in writing that an audit is
       scheduled to start.
      Entrance conference. After written notification, a meeting is held to inform the agency of
       the purpose, objectives, and scope of the audit and the methodology to be followed.
      Audit field work. A detailed evaluation of the program, activity, or function is conducted in
       accordance with Government Accountability Office standards.
      Exit conference. At the conclusion of an audit, a formal conference is held with the
       principal post and bureau officials to present the audit results. This provides an opportunity
       for the audit team and the auditee to discuss the audit findings and the recommendations
       offered to address the root cause of the challenges identified.

During the audit, the auditee is kept apprised of audit activities. The Inspector General is given a
detailed briefing before the audit begins and at the conclusion of audit fieldwork. Following the
exit conference, the audit team prepares a draft report, which is vetted for comment and clearance
within OIG. The auditee then typically has up to 15 calendar days to provide comments on the
draft report and to specify whether it agrees with the report’s recommendations and with the
amount of any potential monetary benefits or recoveries. Those comments are incorporated into
the final report. The auditee has 45 days from issuance of the final report to provide information on
actions planned and taken to implement the recommendations.




                              Office of Inspector General FY 2013 Work Plan
                                                   6
                                          UNCLASSIFIED
                                        UNCLASSIFIED


Office of Audits Plans for FY 2013


Audit Directorate
Contracts and Grants Division
                                                                                              Start
Locations           Title                   Primary Objective               Justification
                                                                                              Date

Domestic    OMB Circular A-133          Pursuant to the                      Mandatory        June
and         – Quality Control           requirements of OMB                                   2012
Overseas    Review of Single            Circular A-133, to provide
Bureaus,    Audits OMB Circular         selected Single Audit Act
BBG         A-133 – Single Audit        Desk Reviews that can
            Act Initial (Desk)          identify questioned costs
            Reviews                     for repayment to the
                                        Department and BBG.


Department, Audit of Premium            To determine whether the              Program        August
BBG         Travel at the               BBG is in compliance with               Risk          2012
            Broadcasting Board          Federal regulations and
            of Governors (BBG)          travel guidance for
                                        premium travel.


Overseas    Audit of                    To determine whether                High Priority   September
Bureaus,    Construction                construction contracts for          Performance       2012
OBO, A      Contracts for               selected major Department               Goal
            Selected Department         construction projects are
            of State Projects           complying with Federal              Management
            (Carryover)                 regulations and Department
                                        guidance.


NEA, SCA,   Audit of Selected           To determine whether                High Priority    October
AF, PRM     Overseas Refugee            selected international and          Performance       2012
            Assistance Programs         grantee organizations for               Goal
            (Carryover)                 the Overseas Refugee
                                        Assistance Program are              Management
                                        complying with grant terms
                                        and conditions.




                            Office of Inspector General FY 2013 Work Plan
                                                 7
                                        UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                              Start
Locations            Title                   Primary Objective               Justification
                                                                                              Date

A, RM,       Audit of Department         To determine to what                High Priority   March
PM, AQM      of State Placement          extent the Department’s             Performance     2013
             and Training of             Contracting Officer’s                   Goal
             Contracting Officer’s       Representatives have been
             Representatives             positioned and trained to           Management
                                         support the Department’s
                                         global mission.


A, RM,       Audit of Department         To determine to what                High Priority    April
AQM          of State Progress to        extent the Department’s             Performance      2013
             Reduce Reliance on          approach of turning to the              Goal
             Contractors                 expertise of other Federal
                                         agencies before engaging            Management
                                         private sector contractors
                                         has been effective.


A            Audit of Department         To determine to what                High Priority    June
             of State Contract           extent and manner                   Performance      2013
             Incentive Fees              incentive fees have been                Goal
                                         applied to Department
                                         contract awards and                 Management
                                         whether they have been
                                         properly linked to
                                         acquisition and
                                         performance outcomes per
                                         Department guidance.


Financial Management Division
                                                                                              Start
Locations            Title                   Primary Objective               Justification
                                                                                              Date

Department   Audit of Department         To determine whether the             Mandatory      January
             of State FY 2012            financial statements and                             2012
             Financial Statements        related notes are presented
             (Carryover)                 fairly, in all material
                                         respects, in conformity
                                         with the accounting
                                         principles generally
                                         accepted in the United
                                         States.

                             Office of Inspector General FY 2013 Work Plan
                                                  8
                                         UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                              Start
Locations            Title                   Primary Objective               Justification
                                                                                              Date

BBG          Audit of BBG FY             To determine whether the             Mandatory        June
             2012 Financial              financial statements and                              2012
             Statements                  related notes are presented
             (Carryover)                 fairly, in all material
                                         respects, in conformity
                                         with the accounting
                                         principles generally
                                         accepted in the United
                                         States.


IBWC         Audit of International      To determine whether the             Mandatory        June
             Boundary and Water          financial statements and                              2012
             Commission’s                related notes are presented
             (IBWC) FY 2012              fairly, in all material
             Financial Statements        respects, in conformity
             (Carryover)                 with the accounting
                                         principles generally
                                         accepted in the United
                                         States.


A            Audit of the Bureau         To determine whether the            High Priority     June
             of Administration           surcharge related to                Performance       2012
             Use of the                  acquisitions has improved               Goal
             Procurement                 the efficiency and
             Surcharge                   effectiveness of acquisition        Management
             (Carryover)                 management and improved
                                         customer service.


Department   Department of State         To determine whether the             Mandatory      December
             Compliance with the         Department is in                                      2012
             Improper Payments           compliance with the
             Improvement Act             Improper Payments
                                         Improvement Act, as
                                         amended.




                             Office of Inspector General FY 2013 Work Plan
                                                  9
                                         UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                              Start
Locations            Title                   Primary Objective               Justification
                                                                                              Date

BBG          BBG Compliance              To determine whether BBG             Mandatory      December
             with the Improper           is in compliance with the                             2012
             Payments                    Improper Payments
             Improvement Act             Improvement Act, as
                                         amended.


INL, RM      Review of DOS FY            To authenticate the                  Mandatory      December
             2012 Accounting and         Department’s FY 2012                                  2012
             Authentication of           accounting of drug control
             Drug Control Funds          funds and related
             and Related                 performance in compliance
             Performance Report          with ONDCP guidance.
             for the Office of
             National Drug
             Control Policy
             (ONDCP)


Department   Audit of Department         To determine whether the             Mandatory      January
             of State FY 2013            financial statements and                             2013
             Financial Statements        related notes are presented
                                         fairly, in all material
                                         respects, in conformity
                                         with the accounting
                                         principles generally
                                         accepted in the United
                                         States.


BBG          Audit of BBG FY             To determine whether the             Mandatory      January
             2013 Financial              financial statements and                             2013
             Statements                  related notes are presented
                                         fairly, in all material
                                         respects, in conformity
                                         with the accounting
                                         principles generally
                                         accepted in the United
                                         States.




                             Office of Inspector General FY 2013 Work Plan
                                                  10
                                         UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                             Start
Locations           Title                   Primary Objective               Justification
                                                                                             Date

RM          Audit of Department         To determine whether the            High Priority   January
            of State Management         Department has made                 Performance      2013
            of Vendors in the           payments to vendors on the              Goal
            Accounting System           “Do Not Pay” list and to
                                        determine to what extent            Management
                                        vendors in the accounting
                                        system are valid and
                                        needed.


IBWC        Audit of International      To determine whether the             Mandatory       May
            Boundary and Water          financial statements and                             2013
            Commission’s                related notes are presented
            (IBWC) FY 2013              fairly, in all material
            Financial Statements        respects, in conformity
                                        with the accounting
                                        principles generally
                                        accepted in the United
                                        States.


L           Audit of Department         To determine whether the              Program        June
            of State Process to         Department has an                       Risk         2013
            Develop a                   effective process to
            Consolidated List of        develop and oversee a
            Open Litigation             consolidated list of open
                                        litigation that could impact
                                        the Department’s financial
                                        statements.


RM          Audit of Expired and        To determine whether                High Priority    July
            Cancelled Funds             obligations made against            Performance      2013
                                        expired funds are made in               Goal
                                        accordance with budget
                                        authority and to determine          Management
                                        the reasons that bureaus are
                                        not using funds within the
                                        deadlines of the
                                        appropriation.




                            Office of Inspector General FY 2013 Work Plan
                                                 11
                                        UNCLASSIFIED
                                        UNCLASSIFIED


Human Capital and Infrastructure Division
                                                                                             Start
Locations           Title                   Primary Objective               Justification
                                                                                             Date

HR          Audit of Department         To determine to what                High Priority    July
            of State Personnel          extent the Department’s             Performance      2012
            Disciplinary Actions        personnel disciplinary                  Goal
                                        actions are appropriate in
                                        nature, consistently applied          Building
                                        within the Department, and            Civilian
                                        comply with Federal                   Capacity
                                        guidelines.


INL         Audit of the               To determine to what extent           GAO High       October
            Department of State        the Department’s                        Risk          2012
            Contributions and          contributions to the Merida
            Performance Results        Initiative have been                  Sustaining
            for the Merida             administered in accordance             Counter-
            Initiative                 with applicable Federal                narcotics
                                       laws and Department                   Activities
                                       guidance and whether
                                       stated performance goals
                                       have been achieved.


MED         Audit of Foreign           To determine to what extent          High Priority   February
            Service Medical            the Department’s medical             Performance       2013
            Officers’ Internal         health units are effectively             Goal
            Controls of Medical        administering internal
            Supplies, Controlled       controls over the ordering,          Management
            Substances, and            receipt, storage, and
            Prescription Drugs at      disposition of medical
            Select Posts               supplies, controlled
                                       substances, and prescription
                                       drugs.


A           Audit of Department        To determine to what extent          High Priority    May
            of State Expedited         the Expedited Logistics              Performance      2013
            Logistics Program          Program has been effective               Goal
                                       in providing posts with
                                       easy, fast, and cost effective       Management
                                       methods to obtain
                                       commonly used items.


                            Office of Inspector General FY 2013 Work Plan
                                                 12
                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                              Start
Locations           Title                   Primary Objective               Justification
                                                                                              Date

OBO, A,     Audit of the Design        To determine to what extent          High Priority   September
AQM         and Construction of        contracts for the design and         Performance       2013
            New Embassy                construction of New                      Goal
            Compound London            Embassy Compound (NEC)
                                       London followed Federal              Management
                                       construction regulations
                                       and Department guidance.


Information Technology Division
                                                                                              Start
Locations           Title                   Primary Objective               Justification
                                                                                              Date

IRM         Audit of Department        To determine whether the               Program        August
            of State Security          Department has securely                  Risk          2012
            Controls over the          implemented active
            Active Directory           directory services to
            Enterprise                 prevent outside cyber
            Environments               attacks and to what extent
            (Carryover)                the Department has
                                       implemented effective
                                       security controls across the
                                       enterprise.


IRM         Audit of Department        To determine whether the               Program       September
            of State Data Center       Department has instituted                Risk          2012
            Security and               security controls that are
            Consolidation              appropriate to its data
            (Carryover)                centers and what progress
                                       has been made with the data
                                       center consolidation
                                       mandate.


IRM         Audit of Department        To determine to what extent:           Program        January
            of State System            1) the Department’s SDLC                 Risk          2013
            Development Life           policies and procedures
            Cycle (SDLC)               adequately address Federal
                                       requirements and IT best
            Process
                                       practices governing the SDLC
            (Carryover)                process; and 2) information
                                       security and management
                                       controls are addressed at each
                                       stage of the SDLC.
                            Office of Inspector General FY 2013 Work Plan
                                                 13
                                        UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                            Start
Locations           Title                   Primary Objective               Justification
                                                                                            Date

IBWC        Audit of the               To evaluate the                       Mandatory      March
            Information Security       effectiveness of security                            2013
            Program at the             controls and techniques for
            International              selected information
            Boundary and Water         systems and compliance
            Commission (IBWC)          with Federal Information
                                       Security Management Act
                                       (FISMA) and related
                                       information security
                                       policies, procedures,
                                       standards, and guidelines.



BBG         Audit of the               To evaluate the                       Mandatory      April
            Information Security       effectiveness of security                            2013
            Program at the             controls and techniques for
            Broadcasting Board         selected information
            of Governors (BBG)         systems and compliance
                                       with Federal Information
                                       Security Management Act
                                       (FISMA) and related
                                       information security
                                       policies, procedures,
                                       standards, and guidelines.



RM, DS,     Department of State        To determine whether the               Program       May
IRM, CA,    Wireless Networks          Department has securely                  Risk        2013
A, HR                                  implemented wireless
                                       networks to prevent outside
                                       cyber attacks and to what
                                       extent the Department has
                                       implemented effective
                                       security controls through
                                       the enterprise.




                            Office of Inspector General FY 2013 Work Plan
                                                 14
                                        UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                             Start
Locations            Title                   Primary Objective               Justification
                                                                                             Date

DS, INR      Audit of the               To evaluate the                       Mandatory      July
             Information Security       effectiveness of security                            2013
             Program for                controls and techniques for
             Sensitive                  SCI systems and
             Compartmented              compliance with
             Information (SCI)          Department policies and
             Systems at the             with Federal Information
             Department of State        Security Management Act
                                        (FISMA) and related
                                        information security
                                        policies, procedures,
                                        standards, and guidelines.


RM, DS,      Audit of Department        To determine to what extent          Program Risk    August
IRM, CA,     of State Contingency       the Department has                                    2013
A, HR        Plans for Enterprise       developed and tested
             Systems and                contingency plans for
             Applications               enterprise systems and
                                        applications.


Security and Intelligence
                                                                                             Start
 Location            Title                   Primary Objective               Justification
                                                                                             Date

DS, OBO,     Audit of Department        To determine whether                   Program       April
RM           of State Compliance        select New Embassy and                   Risk        2012
             With Physical              Consulate Compounds with
             Security Standards         high-threat levels are in
             and Measures Taken         compliance with physical
             To Address Threat          security standards, and
             Levels at Selected         whether officials at these
             Overseas Posts             posts have efficiently
             (Carryover)                aligned resource plans with
                                        mission requirements and
                                        have used available
                                        authorities to effectively
                                        implement the post security
                                        program.




                             Office of Inspector General FY 2013 Work Plan
                                                  15
                                         UNCLASSIFIED
                                        UNCLASSIFIED


                                                                                              Start
 Location           Title                   Primary Objective               Justification
                                                                                              Date

T, ISN,     Audit of Department        To determine whether the             High Priority   September
CT          of State                   Department has                       Performance       2012
            Administration of          implemented internal                     Goal
            Nonproliferation and       controls to effectively
            Threat Reduction           monitor and measure                     Global
            Programs                   Nonproliferation and Threat            Security
            (Carryover)                Reduction assistance.



DS, IRM     Audit of Bureau of         To determine the                       Program       December
            Diplomatic Security        Department’s progress in                 Risk          2013
            Implementation of          implementing interoperable
            Interoperable              communications among
            Communications at          strategic partners at
            Overseas Posts             overseas posts.
            (Carryover)


T, PM,      Audit of Department        To determine to what extent          High Priority     May
EEB         of State Actions To        the Department has                   Performance       2013
            Address the                advanced its goals and                   Goal
            Challenges of              objectives in combating
            Maritime Piracy            maritime pirate attacks                 Global
            (Carryover)                emanating from Africa.                 Security



DRL, INL,   Audit of the               To determine to what extent           GAO High        August
CSO, GCJ    Department of State        the Department has                      Risk           2013
            Integration of             progressed in integrating
            Security and Justice       security and justice sector           Stabilizing
            Sector Assistance          assistance and has                     Regional
                                       effectively linked the                 Conflicts
                                       assistance to development
                                       by emphasizing host
                                       nation’s ownership of
                                       programs.




                            Office of Inspector General FY 2013 Work Plan
                                                 16
                                        UNCLASSIFIED
                                        UNCLASSIFIED


Middle East Regional Operations Directorate
Iraq
                                                                                             Start
 Location           Title                   Primary Objective               Justification
                                                                                             Date

Embassy     Audit of Department        To determine whether the             High Priority    March
Baghdad,    of State Management        Department's management              Performance      2012
NEA,        of Medical                 of medical operations                    Goal
MED,        Operations                 dedicated to supporting
AQM         Supporting Personnel       personnel assigned to Iraq               Iraq
            Assigned to Iraq           has been effective and
            (Carryover)                properly resourced.


Embassy     Audit of the               To determine whether the             High Priority   December
Baghdad,    Worldwide                  Department's administration          Performance       2012
DS, AQM     Protective Services        and oversight of the WPS                 Goal
            (WPS) Task Order           task order for Kirkuk/Mosul
            for Kirkuk/Mosul           has been effective.                      Iraq
            Task Order
            (Carryover)


Embassy     Audit of Civilian          To determine whether the             High Priority    March
Baghdad,    Assistance Programs        Department’s                         Performance      2013
NEA, INL,   in Iraq                    administration and                       Goal
AQM                                    oversight of civilian
                                       assistance programs are                  Iraq
                                       effective and whether the
                                       programs are achieving
                                       stated program objectives.


Embassy     Audit of the Bureau        To determine whether the             High Priority    August
Baghdad,    of International           Air Wing Program in Iraq is          Performance       2013
NEA, INL,   Narcotics and Law          achieving its stated                     Goal
AQM         Enforcement Affairs        objectives, contractor
            Air Wing Program in        performance is adequately                Iraq
            Iraq                       monitored, and that costs
                                       charged by the contractor
                                       are consistent with the
                                       contract terms and
                                       conditions.




                            Office of Inspector General FY 2013 Work Plan
                                                 17
                                        UNCLASSIFIED
                                          UNCLASSIFIED


                                                                                               Start
Locations             Title                   Primary Objective               Justification
                                                                                               Date

Embassy  Audit of the Contract           To determine whether the             High Priority   October
Baghdad, Closeout Process for            Department is: 1) closing            Performance      2012
NEA, AQM Contracts Supporting            contracts in accordance                  Goal
         the U.S. Mission in             with Federal and
         Iraq                            Department guidance; and                 Iraq
                                         2) identifying and de-
                                         obligating funds remaining
                                         on physically completed
                                         contracts.


Afghanistan
                                                                                               Start
Locations             Title                   Primary Objective               Justification
                                                                                               Date

Embassy       Audit of the               To determine whether the             High Priority   December
Kabul, DS,    Worldwide                  Department's administration          Performance       2012
AQM, SCA      Protective Services        and oversight of the WPS                 Goal
              (WPS) Task Order           task order for KESF has
              for the Kabul              been effective.                      Afghanistan
              Embassy Security
              Force (KESF)
              (Carryover)

Embassy       Audit of                   To determine whether the             High Priority   January
Kabul, INL,   Administration and         Bureau of International              Performance      2013
OBO, SCA      Oversight of               Narcotics and Law                        Goal
              Contracts to               Enforcement Affairs has
              Construct Prisons          effectively administered             Afghanistan
              within Afghanistan         and overseen funds
              (Carryover)                expended for prison
                                         construction within
                                         Afghanistan.

AQM,          Audit of the Contract      To determine whether the             High Priority     May
NEA, INL,     Closeout Process for       Department is: 1) closing            Performance       2013
Embassy       Afghanistan                contracts in accordance                  Goal
Kabul         Contracts                  with Federal and
                                         Department guidance; and             Afghanistan
                                         2) identifying and de-
                                         obligating funds remaining
                                         on physically completed
                                         contracts.

                              Office of Inspector General FY 2013 Work Plan
                                                   18
                                          UNCLASSIFIED
                                         UNCLASSIFIED


                                                                                               Start
Locations            Title                   Primary Objective               Justification
                                                                                               Date

Embassy      Audit of Embassy           To determine whether the             High Priority     June
Kabul,       Construction in            Department is effectively            Performance       2013
OBO,         Kabul                      administering the Embassy                Goal
AQM, SCA                                construction contracts in
                                        Kabul.                               Afghanistan


Embassy    Audit of INL’s               To determine whether the             High Priority   September
Kabul, SCA Counter-narcotics            Bureau of International              Performance       2013
           Programs in                  Narcotics and Law                        Goal
           Afghanistan                  Enforcement Affairs is
                                        achieving intended and               Afghanistan
                                        sustainable results through
                                        its Counternarcotics
                                        Programs in Afghanistan.


Embassy      Audit of the               To evaluate the                      High Priority    October
Kabul,       Department’s               Department’s planning for            Performance       2012
OBO,         Transition Planning        the transition from a                    Goal
AQM, SCA     in Afghanistan             military-led to a civilian-led
                                        mission in Afghanistan.              Afghanistan


Pakistan
                                                                                               Start
Locations            Title                   Primary Objective               Justification
                                                                                               Date

PM,          Audit of the               To determine whether the             High Priority    October
Embassy      Administration and         Department’s                         Performance       2012
Islamabad,   Oversight of the           administration and                       Goal
SCA          Pakistan                   oversight of the Pakistan
             Counterinsurgency          Counterinsurgency                      Pakistan
             Capability Fund            Capability Fund have been
                                        effective.

Embassy      Audit of INL’s             To determine whether the             High Priority    March
Islamabad,   Judicial Reform            INL’s administration and             Performance      2013
SCA, INL     Programs in Pakistan       oversight of its judicial                Goal
                                        reform programs in
                                        Pakistan are effective and             Pakistan
                                        whether the programs are
                                        achieving stated program
                                        objectives.
                             Office of Inspector General FY 2013 Work Plan
                                                  19
                                         UNCLASSIFIED
                                          UNCLASSIFIED


Other Locations and Bureaus
                                                                                                Start
 Location             Title                   Primary Objective               Justification
                                                                                                Date

Consulate     Audit of the               To determine whether the             Program Risk     March
General       Worldwide                  Department's administration                           2013
Jerusalem,    Protective Services        and oversight of the WPS
DS, AQM       (WPS) Jerusalem            task order for Jerusalem has
              Task Order                 been effective.
              (Carryover)


Embassy       Audit of Department        To determine whether the             High Priority     June
Jordan, INL   of State                   Bureau of International              Performance       2013
              Administration and         Narcotics and Law                        Goal
              Oversight of the           Enforcement Affairs’
              Jordanian Police           administration and                   Democracy,
              Modernization              oversight of the Jordanian              Good
              Program (Carryover)        Police Modernization                 Governance,
                                         Program have been                      Human
                                         effective and whether the              Rights
                                         program has achieved its
                                         stated performance goals.


NEA, SCA,     Audit of Movement          To assess the efforts to               Program       September
DS,           Security in the            protect Department of State              Risk          2013
Selected      MERO Region                personnel during
Embassies                                movements outside selected
                                         Embassy Compounds.


NEA, MEPI Audit of the Middle            To determine whether the             High Priority   September
          East Partnership               Department’s                         Performance       2013
          Initiative                     administration and                       Goal
                                         oversight of the Middle
                                         East Partnership Initiative          Democracy,
                                         have been effective and                 Good
                                         whether the Program has              Governance,
                                         achieved its stated                    Human
                                         objectives.                            Rights




                              Office of Inspector General FY 2013 Work Plan
                                                   20
                                          UNCLASSIFIED
                                          UNCLASSIFIED


 Office of Inspections Overview


Inspections are conducted to provide overseas missions and Department bureaus with assessments
of mission leadership, policy implementation and management operations. The inspection is a
comprehensive and independent review intended to: propose potential efficiencies and cost-saving
measures; encourage self-evaluation and correction; provide counseling to employees, including
ambassadors and bureau assistant secretaries; and identify problems and recommend solutions.
Inspections differ from audits in that inspections normally review an organization in its entirety,
while audits concentrate on a particular function or program that may cross several organizations.

The Foreign Service Act of 1980 requires that an inspection of each Foreign Service post and each
domestic bureau be conducted at least once every 5 years, although this requirement is routinely
waived every year by Congress. OIG’s methodology for investing its resources includes a risk
management approach to help prioritize projects and to ensure that our discretionary inspections
cover high-cost programs, key management challenges, and vital operations. The OIG retains a
quick-reaction capability to address requests made on short notice by Congress or senior
Department officials. Inspection staff also conduct extensive outreach activities, briefing attendees
of FSI courses as well as numerous officers, including ambassadors, before they depart for post.

The domestic and overseas inspection process includes:

      Inspection notification. The Office of Inspections (ISP) notifies the post, office, or bureau
       in writing that an inspection is scheduled. The announcement is followed up with specific
       travel and arrival dates of the inspection team together with instructions for the inspection.
       An ISP point of contact is established, and one is requested of the inspected entity.
      Survey. An initial phase of the inspection process is information collection from the
       inspected entity and relevant Department bureaus, offices, and Federal agencies with which
       it relates. Each inspected entity completes functional questionnaires covering 21 areas of
       operations. These are used as a guide to review operations prior to the arrival of the
       inspectors. Other questionnaires address service satisfaction and individual concerns.
      On-site inspection. The inspection team conducts on-site reviews of the post, bureau, or
       office with a focus on three broad areas set forth in the Foreign Service Act of 1980:
       - Policy implementation—whether policy goals and objectives are being effectively
         achieved; whether post operations are in consonance with the foreign policy of the
         United States; whether U.S. interests are being accurately and effectively represented;
         and whether all elements of an office or mission are being adequately coordinated.




                              Office of Inspector General FY 2013 Work Plan
                                                   21
                                          UNCLASSIFIED
                                      UNCLASSIFIED


    - Resource management—whether resources are being used and managed with maximum
      efficiency, effectiveness, and economy; and whether financial transactions and accounts
      are properly conducted, maintained, and reported. Teams also focus on identifying
      potential efficiencies and cost-saving measures leading to more effective use of
      resources.

    - Management controls—whether the administration of activities and operations meets
      the requirements of applicable laws and regulations; whether internal management
      controls have been instituted to ensure quality of performance and reduce the likelihood
      of mismanagement; whether instances of fraud, waste, or abuse exist; and whether
      adequate steps for detection, correction, and prevention have been taken. The inspectors
      value counseling as a critically important facet of the review process and will seek
      improvements through the use of this technique as a first course of action.

   Inspection reports. The inspectors’ findings and recommendations are formalized and
    issued in report format. Inspection reports adhere to the standards set out in the Quality
    Standards for Inspections, as issued by the Council for Inspectors General on Integrity and
    Efficiency, and the Inspectors’ Handbook, as issued by the OIG.
   Report Review. The inspected entity reviews a field draft of the report and is afforded the
    opportunity to comment. Relevant Washington offices are also provided an opportunity to
    comment. In addition, the draft inspection report is vetted for comment and clearance
    within OIG.
   Follow-up reviews. ISP conducts compliance follow-up reviews on approximately 15-20
    percent of posts, offices, and bureaus inspected. These reviews occur 6 to 12 months after
    the full inspection, and are designed to revisit key issues to ensure implementation of
    recommendations, and to provide quality control of the inspection process.




                          Office of Inspector General FY 2013 Work Plan
                                               22
                                      UNCLASSIFIED
                                   UNCLASSIFIED


Office of Inspections Plans for FY 2013


Fall Cycle: October – November 2012
                       Compliance
Bureau/                Follow-up
Office      Inspection Review     Location
AF                               Embassy Abuja and Constituent Posts, Nigeria
AF                               Embassy Bangui, Central African Republic
EAP                              Embassy Manila, Republic of the Philippines
EAP                              Embassy Phnom Penh, Cambodia
EUR                              Embassy Berlin, Germany
EUR                              Embassy Luxembourg, Luxembourg
WHA                              Embassy Buenos Aires, Argentina
WHA                              Embassy Santiago, Chile
BBG                              Broadcasting Board of Governors
DS/ICI                           Criminal Investigations Division
DS/ICI                           Computer Investigations and Forensics Division
DS/ICI                           Special Investigations Division
FSI                              School of Language Studies
IRM                              Regional Information Management Center Florida
IRM                              Regional Information Management Center Bangkok
IRM                              Regional Information Management Center Frankfurt

Winter Cycle: February – March 2013
                         Compliance
Bureau/                  Follow-up
Office       Inspection Review          Location
AF                                     Embassy Asmara, Eritrea
AF                                     Embassy Juba, South Sudan
AF                                     Embassy Khartoum, Sudan
NEA                                    Embassy Baghdad and Constituent Posts, Iraq
BBG                                    Voice of America’s Russian Language Service
CA                                     Executive Office
CA                                     Office of the Comptroller
ECA                                    Bureau of Educational and Cultural Affairs
EUR-IO/EX                              Regional Support Center Frankfurt
IIP                                    Bureau of International Information Programs
INR                                    Bureau of Intelligence and Research
WHA                                    Regional Support Center Florida




                       Office of Inspector General FY 2013 Work Plan
                                             23
                                   UNCLASSIFIED
                                         UNCLASSIFIED


 Spring Cycle: May – June 2013
                    Compliance
 Bureau/            Follow-up
 Office  Inspection Review                Location
 EUR                                     Embassy Kyiv, Ukraine
 EUR                                     Embassy Minsk, Belarus
 EUR                                     Embassy Moscow and Constituent Posts, Russia
 EUR                                     Embassy Vilnius, Lithuania
 WHA                                     Embassy Brasilia and Constituent Posts, Brazil
 BBG                                     Voice of America’s Latin American Service
 EAP                                     Bureau of East Asia and Pacific Affairs
 T/ISN                                   Bureau of International Security and Nonproliferation



Office of Inspections Special Projects and Areas of Emphasis


The Office of Inspections also conducts targeted reviews based on congressional or Department
requests, vulnerabilities, and concerns about high priority programs or issues. OIG establishes
areas of emphasis for all inspection teams to cover during an inspection cycle or the entire fiscal
year. Findings on the areas of emphasis are analyzed across inspections and allow inspectors to
take a broader look at high priority issues. In some cases, summary reports are issued with
recommendations to address thematic or global problems.

Planned Special Projects and Areas of Emphasis for FY 2013 include:

       •   Implementation of the National Export Initiative (which has a goal of doubling U.S.
           exports in five years) through an increased focus on commercial diplomacy;
       •   Provision of commercial services at missions without a Foreign Commercial Service
           presence;
       •   Coordination in countering terrorism and combating violent extremism;
       •   Effective use of social media;
       •   Adequacy of consular systems and training;
       •   Compliance with the sections of the William Wilberforce Trafficking Victims
           Protection Reauthorization Act (WWTVPRA) that require consular officers to
           educate non-immigrant visa applicants on their rights;
       •   Compliance with the sections of the WWTVPRA that relate to Department contracts
           and contractor oversight;
       •   Compliance with Jeddah Accountability Review Board recommendations to create
           areas of refuge for employees working on compound outside an office building;
       •   Adequacy of information technology inventories and associated procedures;
       •   Adequacy of information technology contractor selection and oversight;
       •   Efforts to improve President’s Emergency Plan for AIDs Relief leadership; and
       •   Appropriateness of missions’ language designated positions.
                             Office of Inspector General FY 2013 Work Plan
                                                   24
                                         UNCLASSIFIED
                                         UNCLASSIFIED


Office of Investigations Overview


The Office of Investigations is committed to addressing allegations of fraud and misconduct in an
independent and objective manner, by conducting investigations of criminal, civil, and
administrative violations related to Department and BBG programs and operations, and by
assisting the Department and BBG in preventing and detecting, fraud. OIG’s investigative
activities are largely reactive and occur in locations around the world.  

The results of investigations concerning employees or contractors suspected of violating federal
statutes are referred to the Department of Justice for prosecutorial determination. Administrative
violations are referred to the Department's Bureau of Human Resources and Bureau of Diplomatic
Security for independent adjudicative action.

The types of violations investigated by OIG cover a wide range including procurement fraud,
public corruption, embezzlement, false claims and false statements. Chart A, below, illustrates the
types of cases investigated.




The Office of Investigations maintains a cooperative relationship with the Office of the
Procurement Executive, to ensure information developed is appropriately shared in furtherance of
administrative remedies such as suspension and/or debarment.




                             Office of Inspector General FY 2013 Work Plan
                                                  25
                                         UNCLASSIFIED
                                          UNCLASSIFIED


Office of Investigations Areas of Emphasis
and Preventive Actions for FY 2013


The Office of Investigations consults with stakeholders in the Department and Congress regarding
oversight of high-risk areas and management challenges, adjusting its priorities appropriately. In
addition to the reactive work of the Office of Investigations, programs and operations in the
Department are periodically identified as being of high priority or importance, and investigative
resources are concentrated in those areas. Most recently, priority has been given in the area of
Procurement Fraud, particularly involving Middle East programs and operations.

The Inspector General is charged with fraud prevention as well as detection. Toward this objective,
the Office of Investigations can issue Fraud Alert Bulletins and Management Assistance Reports.
Fraud Alert Bulletins are issued to all executive directors when an investigation identifies a
systemic weakness that may impact multiple Department bureaus or offices. Management
Assistance Reports are issued when a systemic weakness is identified in a bureau-specific program
or operation. It is sent directly to the affected bureau or office with recommendations for corrective
action.

The Office of Investigations also actively participates in an OIG Outreach Program to speak before
a variety of Department groups and training classes in an effort to help employees identify
indicators of fraud that should be referred to OIG. During FY 2012, the Office of Investigations
conducted more than 45 outreach presentations to various Department groups and training classes
involving well over 2,500 Department employees, including new ambassadors.



OIG Hotline


The Office of Investigations also maintains the OIG Hotline, a confidential channel for the receipt
of complaints about violations of law or regulation, fraud, waste, abuse, or substantial and specific
threats to public health and safety. Investigations conducted by OIG criminal investigators are
usually the result of allegations received from the Hotline, OIG Audit or Inspection teams,
Department or BBG management or employees, Offices of Inspector General of other agencies,
Congress, or the public. As necessary, the assistance of auditors, inspectors, and other experts may
be enlisted in support of investigative operations.




                              Office of Inspector General FY 2013 Work Plan
                                                   26
                                          UNCLASSIFIED
                                         UNCLASSIFIED


Complaints to the OIG Hotline have generated numerous successful investigations resulting in
criminal, civil, and administrative sanctions. In FY 2012, approximately 2,200 hotline complaints
were received (an increase from just over 1,800 in FY 2011). By FY 2014, given the current rate of
growth in the number of complaints received, OIG expects to receive and process more than 2,500
hotline complaints. Allegations may be reported to the Hotline by calling 202-647-3320 or 1-800-
409-9926. Written information may be sent to the oighotline@state.gov or mailed to: Office of
Inspector General Hotline, U.S. Department of State, Post Office Box 9778, Arlington, Virginia
22219-1778.



Abbreviations


The Work Plan refers to the following selected acronyms and abbreviations for terms and titles:

A                     Bureau of Administration

AF                    Bureau of African Affairs

AQM                   Office of Acquisitions Management

AUD                   Office of Audits

BBG                   Broadcasting Board of Governors

CA                    Bureau of Consular Affairs

CPA                   Office of Congressional and Public Affairs

CSO                   Bureau of Conflict and Stabilization Operations

CT                    Coordinator for Counterterrorism

Department            Department of State

DRL                   Bureau of Democracy, Human Rights, and Labor

DS                    Bureau of Diplomatic Security

DS/ICI/CIF            Bureau of Diplomatic Security, Office of Investigations and
                      Counterintelligence, Computer Investigations and Forensics Division

DS/ICI/CR             Bureau of Diplomatic Security, Office of Investigations and
                      Counterintelligence, Criminal Investigations Division


                             Office of Inspector General FY 2013 Work Plan
                                                  27
                                         UNCLASSIFIED
                                 UNCLASSIFIED


DS/ICI/SID   Bureau of Diplomatic Security, Office of Investigations and
             Counterintelligence, Special Investigations Division

EAP          Bureau of East Asian and Pacific Affairs

ECA          Bureau of Educational and Cultural Affairs

EEB          Bureau of Economic, Energy, and Business Affairs

EUR          Bureau of European and Eurasian Affairs

EUR-IO/EX    Bureau of European and Eurasian Affairs and Bureau of International
             Organization Affairs Joint Executive Office

EX           Office of the Executive Director

FISMA        Federal Information Security Management Act

FSI          Foreign Service Institute

GCJ          Office of Global Criminal Justice

HR           Bureau of Human Resources

IBWC         International Boundary and Water Commission

IG           Inspector General

INL          Bureau of International Narcotics and Law Enforcement Affairs

INR          Bureau of Intelligence and Research

INV          Office of Investigations

IRM          Bureau of Information Resource Management

ISP          Office of Inspections

ISN          Bureau of International Security and Nonproliferation

KESF         Kabul Embassy Security Force

L            Office of the Legal Advisor

MED          Office of Medical Services

MEPI         Middle East Partnership Initiative

MERO         Middle East Regional Office


                    Office of Inspector General FY 2013 Work Plan
                                         28
                                 UNCLASSIFIED
                            UNCLASSIFIED


NEA       Bureau of Near Eastern Affairs

OBO       Bureau of Overseas Buildings Operations

OGC       Office of General Counsel

OIG       Office of Inspector General

PM        Bureau of Political-Military Affairs

PRM       Bureau of Population, Refugees and Migration

RM        Bureau of Resource Management

SCA       Bureau of South and Central Asian Affairs

SDLC      System Development Life Cycle

SI        Security and Intelligence Division

T         Under Secretary for Arms Control and International Security

WHA       Bureau of Western Hemisphere Affairs

WPS       Worldwide Protective Services

WWTVPRA   William Wilberforce Trafficking Victims Protection Reauthorization Act




                Office of Inspector General FY 2013 Work Plan
                                      29
                            UNCLASSIFIED
